U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Gregory C. Raymore v. United States of America,
S.Ct. No. 20-6197

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 14,
2020, and placed on the docket on November 3, 2020. The government’s response is due on
December 3, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 4, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6197
RAYMORE, GREGORY C.
USA

MATTHEW MCGAVOCK ROBINSON
ROBINSON & BRANDT, PSC
629 MAIN STREET
SUITE B
COVINGTON, KY 41011
859-581-7777
ASSISTANT@ROBINSONBRANDT.COM

